                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-FM-13-23                                     Office of Audits                                       March 2013




               Audit of Department of State

                FY 2012 Compliance With

             Improper Payments Requirements





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                             United Statf's Department of State
                                                             and the Broadcasting Board of Governors

                                                             OjfiCll ofInspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

       This report addresses the Department's FY 20 12 compliance with improper payments
requirements. The report is based on interviews with Department employees and officials and a
review of applicable documents.

       OIG contracted with the independent public accountant, Kearney & Company, P.c.
(Kearney), to perform this audit. The contract required that Kearney perform its audit in
accordance with guidance contained in Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney' s report is included.

       Kearney identified three areas in which improvements could be made: risk assessment
process, recapture audits, and improper payments disclosures.

       OIG evaluated the nature, extent, and timing of Kearney's work; monitored progress
throughout the audit; reviewed Kearney's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Kearney's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. ~iG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General




                                         UNCLASSIFIED 

                                                       1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                       PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of Department of State FY 2012 Compliance With Improper Payments Requirements



Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (referred to as “we” in this letter), has performed an audit of the
Department of State’s (Department) FY 2012 compliance with the Improper Payments
Information Act of 2002, as amended by the Improper Payments Elimination and Recovery Act
of 2010. We evaluated the Department’s performance in complying with the requirements set
forth by the Office of Management and Budget. This performance audit, performed under
Contract No. SAQMMA09D0002, was designed to meet the objectives identified in the report
section titled “Objective” and further defined in Appendix A, “Scope and Methodology,” of the
report.

We conducted this performance audit from December 2012 through February 2013 in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States. We communicated the results of our performance audit and the related findings
and recommendations to the U.S. Department of State Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.




Kearney & Company, P.C.
Alexandria, VA
March 14, 2013




                                      UNCLASSIFIED

                                  UNCLASSIFIED



______________________________________________________________________________
Acronyms
AFR               Agency Financial Report
CBJ               Congressional Budget Justification
CGFS              Bureau of the Comptroller and Global Financial Services
CGFS/DCFO/MC      Bureau of the Comptroller and Global Financial Services, Deputy Chief
                    Financial Officer, Office of Management Controls
CGFS/F/C          Bureau of the Comptroller and Global Financial Services, Office of
                    Claims
CGFS/OMA          Bureau of the Comptroller and Global Financial Services, Office of
                    Management and Analysis
FAH               Foreign Affairs Handbook
IPERA             Improper Payments Elimination and Recovery Act of 2010
IPIA              Improper Payments Information Act of 2002
OIG               Office of Inspector General
OMB               Office of Management and Budget




                                  UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents

 

Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................2 


Objective……. .................................................................................................................................4 


Audit Results ..................................................................................................................................4 

       Finding A. Program Risk Assessments Were Performed, but Methodology Needs
       Refinement ...........................................................................................................................4 

       Finding B. Controls Successfully Implemented To Prevent, Detect, and Recapture
       Improper Payments But Need To Be Strengthened ...........................................................11 

       Finding C. Most Improper Payments Disclosures Were Made, but Some Were
       Omitted or Were Inaccurate ...............................................................................................17 


List of Recommendations ..............................................................................................................20 


Appendices
      A. Scope and Methodology................................................................................................21 

      B. Bureau of the Comptroller and Global Financial Services Response ...........................23 





                                                          UNCLASSIFIED

                                           UNCLASSIFIED


                                        Executive Summary

        Federal agencies reported an estimated $108 billion in improper payments in FY 2012.
Over the past decade, the Federal Government has implemented safeguards to reduce improper
payments. In 2010, the Improper Payments Elimination and Recovery Act1 (IPERA), which
amended the Improper Payments Information Act of 20022 (IPIA), was signed into law. IPERA
strengthened IPIA by increasing requirements for identifying and reporting on improper
payments. In April 2011, the Office of Management and Budget (OMB) issued guidance to
implement IPERA.

         IPIA requires agencies’ Offices of Inspector General (OIG) to annually assess
compliance with improper payments requirements. In accordance with this requirement,
Kearney & Company, P.C. (Kearney), an external audit firm acting on OIG’s behalf, conducted
the first annual audit of the Department of State’s (Department) FY 2011 compliance and
reported in 20123 that although the Department had taken steps to comply with IPIA, the
Department had not implemented all requirements for identifying and reporting improper
payments. OIG recommended that the Department develop policies and standard procedures for
complying with IPIA, as amended by IPERA.4

       Kearney conducted this second annual audit to assess the Department’s FY 2012
compliance with IPIA. Kearney found that the Department performed program-specific risk
assessments for programs that experienced significant changes. The Department had also
developed risk assessment policies and procedures and expanded and refined its risk assessment
methodology to include the qualitative risk factors included in OMB’s guidance. Although the
Department made improvements in its risk assessment methodology during FY 2012, the
methods it used to identify significant changes and perform qualitative assessments need
improvement. In addition, the Department had not performed a baseline risk assessment of all
programs, but a Department official indicated that the risk assessments would be performed
during FY 2013. Before it performs baseline risk assessments in FY 2013, the Department
should improve its definition of a “program” as well as its process for identifying programs.

       Kearney also found that the Department had implemented a program of internal control
to prevent, detect, and recapture improper payments and identified $11.1 million in improper
payments during FY 2012. However, the Department excluded a significant amount of
payments from its recapture audits, and the audits were focused on payments rather than on
programs. Although the Department was analyzing ways to perform recapture audits over
excluded payment types, it had not completed that analysis at the time of this audit. The
Department had included most of the required improper payments disclosures in its FY 2012
Agency Financial Report (AFR); however, some disclosures were omitted or were inaccurate.



1 Pub. L. No. 111-204.

2 Pub. L. No. 107-300.

3 Audit of Department of State Compliance With the Improper Payments Information Act (AUD/FM-12-31, March 

2012). 

4 Unless otherwise indicated, the term “IPIA” means “IPIA, as amended by IPERA,” in this report.


                                                     1

                                           UNCLASSIFIED
                                             UNCLASSIFIED


        Based on the actions that the Department has taken since the 2012 report, OIG is closing
the three recommendations in the 2012 report upon issuance of this report. However, OIG is
making three new recommendations for the Department to improve the risk assessment process,
expand recapture audits, and disclose all required improper payments information.

       In its March 13, 2013, response (see Appendix B) to the draft report, the Bureau of the
Comptroller and Global Financial Services (CGFS) concurred with all of the report’s
recommendations. Based on the response, OIG considers each recommendation resolved,
pending further action. Management’s responses and OIG’s replies to those responses are
included after each recommendation.

                                               Background
        According to OMB, Federal agencies reported an estimated $108 billion in improper
payments, funded by taxpayer dollars, that were issued to individuals, organizations, and
contractors during FY 2012. Improper payments are payments that should not have been made
or that were made in an incorrect amount. Improper payments include overpayments and
underpayments, duplicate payments, payments made to an ineligible recipient, payments for an
ineligible good or service, payments for goods or services not received (except for such
payments authorized by law), payments that do not account for credit for applicable discounts,
and payments for which an agency could not determine whether the payments were proper
because of insufficient documentation or lack of supporting documentation.

        Over the past decade, the Federal Government has implemented safeguards to reduce
improper payments. IPIA, as initially enacted in 2002, required Federal agencies to annually
identify programs and activities5 at high risk of improper payments, estimate the amount of
improper payments in those programs, perform recovery auditing if program payments exceeded
$500 million, and report to Congress on steps taken to reduce improper payments.

       In July 2010, IPERA, which amended IPIA, was enacted in an effort to further reduce
improper payments. IPERA clarified the programs to be reviewed and expanded improper
payments recapture activities. IPERA also required Inspectors General to determine whether an
agency was in compliance and established additional requirements for agencies that were
deemed noncompliant.

       In 2011, OMB issued Government-wide guidance on the implementation of IPERA as
Revised Parts I and II to Appendix C of OMB Circular A-123, Management’s Responsibility for
Internal Controls.6 The guidance, among other things, defines the programs and payments that
agencies must assess for the risk of improper payments and provides requirements for
determining whether the risk of improper payments is significant, for developing an estimate of
improper payments, for performing recapture audit activities, and for reporting improper
payments activities.


5The term “program and activity” is referred to in this report as “program.” 

6OMB Circular A-123, Appendix C, Revised Parts I and II, will be referred to in this report as OMB Circular A-
123, Appendix C.

                                                        2

                                             UNCLASSIFIED
                                              UNCLASSIFIED



Department of State Payments

        The Department is the primary agency through which the U.S. Government conducts its
diplomacy. The Department operates more than 270 embassies, consulates, and other posts
worldwide. The Department provides policy guidance, program management, administrative
support, and in-depth expertise in areas such as law enforcement, economics, the environment,
intelligence, arms control, human rights, counternarcotics, counterterrorism, public diplomacy,
humanitarian assistance, security, nonproliferation, and consular services.

       Because of the nature and the extent of its programs, the Department makes significant
payments to third-party vendors, contractors, and grantees. During FY 2012, the Department
made payments of approximately $28 billion, of which $14.6 billion was subject to IPIA
requirements.7 Of the $14.6 billion, payments of approximately $7.4 billion were to vendors and
contractors and payments of $7.2 billion were for Federal Financial Assistance, including grants,
assessed contributions,8 and voluntary contributions.9 The amount and volume of payments
made by the Department, the Department’s emphasis on expediting certain payments (for
example, payments for necessary foreign financial assistance), and the decentralized nature of
the Department’s operations increase the Department’s risk for improper payments.

        CGFS has oversight responsibilities for the Department’s financial management
program. Financial management program responsibilities include establishing financial policy
and procedure, financial reporting and analysis, management of financial information systems,
and management controls. Management controls, also known as “internal controls,” are the
processes designed and implemented by an organization to help it accomplish its goals or
objectives. Important internal control activities include those that are aimed at ensuring that only
valid, proper payments are made.

       Within CGFS, the Office of Claims (CGFS/F/C) is the central domestic paying agent of
the Department. The Office of Oversight and Management Analysis (CGFS/OMA) is
responsible for, among other things, ensuring compliance with financial laws, policies, and
procedures and for performing internal control and quality control reviews. The Deputy Chief
Financial Officer, Office of Management Controls (CGFS/DCFO/MC), is responsible for
overseeing the Department’s management control program and other financial management
functions, such as administering compliance with OMB Circular A-123, Appendix C.




7 OMB Circular A-123, Appendix C, states that agencies may, but are not obligated to, review payments to

employees and intragovernmental transactions for improper payments unless directed to do so by OMB. Of the

payments of $28 billion, payments of approximately $7.4 billion were to employees and payments of $6 billion were 

intragovernmental and intradepartmental transactions. 

8 Assessed contributions represent financial assistance to foreign countries, international societies, commissions, 

proceedings, or projects that are agreed to as part of a treaty or other agreement.

9 Voluntary contributions represent discretionary financial assistance provided to foreign countries, international 

societies, commissions, proceedings, or projects. 

                                                         3

                                              UNCLASSIFIED
                                        UNCLASSIFIED



Prior OIG Reports

        In 2012, OIG reported10 that although the Department had taken steps to comply with
IPIA, the Department’s improper payments risk assessment methodology was insufficient,
recapture audit activities were not performed for all types of improper payments or all payments,
and some improper payments disclosures required to be included in the AFR were omitted or
were inaccurate. OIG recommended that the Department develop policies and standardized
procedures for performing improper payments risk assessments and recapture audit activities and
for reporting information relating to improper payments in its AFR. These recommendations
remained resolved but open at the time of the fieldwork for this audit.

                                           Objective

       The overall objective of this audit was to determine whether the Department was in
compliance with IPIA. To accomplish this objective, Kearney

      	 Evaluated whether the Department conducted a program-specific risk assessment for all
         programs.

      	 Evaluated the Department’s performance in preventing, detecting, and recapturing
         improper payments.

      	 Determined whether the Department reported the required improper payments 

         information in its 2012 AFR. 


                                         Audit Results

Finding A. Program Risk Assessments Were Performed, but Methodology
Needs Refinement

        During FY 2012, the Department performed program-specific risk assessments for
programs that experienced significant changes. Specifically, CGFS/DCFO/MC identified
programs with significant legislative changes or significant funding changes, which
CGFS/DCFO/MC identified as changes over $100 million, from FY 2010 to FY 2011.
CGFS/DCFO/MC performed a qualitative risk assessment of these programs, in accordance with
OMB Circular A-123, Appendix C. CGFS/DCFO/MC had also developed risk assessment
policies and procedures and expanded and refined its risk assessment methodology. However,
the methods used to identify programs with significant changes and to perform the qualitative
risk assessments need improvements.

        Although CGFS/DCFO/MC performed a risk assessment of the programs that it defined
as having significant changes, CGFS/DCFO/MC had not performed a baseline risk assessment of
all programs as required by IPIA. During FY 2011 and FY 2012, only nine programs were
assessed. CGFS/DCFO/MC stated that it did not perform a full baseline risk assessment in FY
10   AUD/FM-12-31, March 2012.
                                                4

                                        UNCLASSIFIED
                                              UNCLASSIFIED


2012 because of resource limitations and its focus on developing formal policies and procedures.
According to a CGFS/DCFO/MC official, all significant programs will be evaluated during the
FY 2013 risk assessment. In addition, during FY 2012, CGFS/DCFO/MC defined “program” as
a combination of allotments and function codes; however, it had not applied the definition
consistently. Without a full baseline risk assessment and a consistent definition of program, the
Department may not have ensured that all programs at risk for significant improper payments
were identified and adequately assessed.

Programs With Significant Changes Were Identified

        IPIA requires agencies to periodically review all programs and identify those that may be
susceptible to significant improper payments. OMB Circular A-123, Appendix C, defines
“significant improper payments” as gross annual improper payments in the program exceeding
(1) both 2.5 percent of program outlays and $10 million of all program payments made during
the fiscal year or (2) $100 million. The Circular requires that agencies review all programs for
susceptibility for significant improper payments in FY 2011 and every 3 years thereafter for
programs deemed not risk susceptible. However, if a program experiences significant legislative
or funding changes, the program must be reassessed during the next annual cycle.

        In FY 2012, CGFS/DCFO/MC performed risk assessments for programs that experienced
significant legislative or funding changes from FY 2010 to FY 2011. For risk assessment
purposes, CGFS/DCFO/MC elected to identify its programs using a combination of financial
accounting codes–the allotment and function codes. CGFS/DCFO/MC defined a significant
change in program funding as an increase of over $100 million.

        To identify programs that had significant changes in legislation, CGFS/DCFO/MC
reviewed the Department’s FY 2011 Congressional Budget Justification (CBJ). The CBJ noted
that the primary increase in funding and activity for the year was due to war efforts in Iraq,
Afghanistan, and Pakistan, with particular emphasis on Iraq. Based on this information,
CGFS/DCFO/MC selected Iraq Overseas Contingency Operations for further evaluation.
CGFS/DCFO/MC determined that the most significant function codes for Iraq Overseas
Contingency Operations were the following: Bodyguard and Armed Escort, Non-Residential
Local Guard Program, All Other Guard Service, Armored Vehicles, Perimeter and Internal
Security, and Security Training Programs.

       To identify programs with significant increases in funding, CGFS/DCFO/MC obtained
the FY 2011 and FY 2010 expenditures11 subject to IPIA from its domestic financial
management system. CGFS/DCFO/MC then grouped the expenditures for each year by function
code and calculated the change in spending from FY 2010 to FY 2011 for each function code.
Based on this calculation, CGFS/DCFO/MC identified four function codes as having
experienced significant, over $100 million, funding changes:

              UN Organization Mission in the Democratic Republic of the Congo 

              Bodyguard and Armed Escorts 



11   For its analysis, CGFS/DCFO/MC used expenditures rather than funding.
                                                        5

                                              UNCLASSIFIED
                                         UNCLASSIFIED



          Promote the Rule of Law and Administration of Justice 

          Civilian Police Programs 


       CGFS/DCFO/MC grouped the payments from two of the four function codes identified
as having experienced significant funding changes into other programs. Specifically, the
UN Organization Mission in the Democratic Republic of the Congo payments were for assessed
contributions. CGFS/DCFO/MC determined that, because of the unique nature of assessed and
voluntary contributions, it would perform risk assessments for these entire payment categories.
Therefore, Democratic Republic of the Congo payments were incorporated into the Assessed
Contribution program. In addition, as noted, CGFS/DCFO/MC grouped Bodyguard and Armed
Escorts payments into Iraq Overseas Contingency Operations, since the Bodyguard and Armed
Escorts function code was identified as significant to that program.

      Based on its analysis, CFGS/DCFO/MC selected the following five programs for
FY 2012 risk assessments:

          Assessed Contributions 

          Voluntary Contributions 

          Promote the Rule of Law and Administration of Justice 

          Civilian Police Programs 

          Iraq Overseas Contingency Operations 


        The payments for the function codes grouped within these five programs amounted to
$5.5 billion, or almost 38 percent, of the $14.6 billion in payments subject to IPIA.

Qualitative Assessments Were Performed

         OMB Circular A-123, Appendix C, requires that agencies institute a systematic method
of performing risk assessments. An agency can perform a quantitative evaluation based on a
statistical sample, or it can perform a qualitative evaluation by considering risk factors likely to
contribute to significant improper payments. For qualitative evaluations, the Circular lists eight
risk factors that should be considered: the age of the program; the complexity of the program;
the volume of payments made annually; a determination as to whether payment eligibility
decisions were made outside of the agency; recent major changes in the program; the level,
experience, and quality of training of certain personnel; significant deficiencies identified in
audit reports; and results from prior improper payment work.

        During FY 2012, CGFS/DCFO/MC performed and documented a qualitative risk
assessment of each of the five selected programs. To perform the assessment, CGFS/DCFO/MC
developed a scorecard for each program that included an evaluation of the eight risk factors
specified by OMB. CGFS/DCFO/MC obtained information for its evaluation by reviewing the
CBJ, Web sites, and external and internal reports. Based on the information obtained,
CGFS/DCFO/MC assigned a numerical rating of 1 (low risk), 2 (moderate risk), or 3 (high risk)
for each risk factor and averaged the ratings to determine an overall risk level for each program.
The overall ratings for each program assessed indicated that three programs had low risk and two
programs had moderate risk. Based on the qualitative risk assessment, CGFS/DCFO/MC
                                                  6

                                         UNCLASSIFIED
                                       UNCLASSIFIED


concluded that none of the programs assessed were deemed susceptible to significant improper
payments as defined by OMB Circular A-123, Appendix C.

Risk Assessment Methodology Was Improved, but Methods To Identify the Significant
Changes Threshold and Perform Qualitative Assessments Need Refinement

         Kearney found that the Department made improvements during FY 2012 to address the
issues relating to its risk assessment methodology identified during the audit of the Department’s
FY 2011 compliance with IPIA. CGFS/DCFO/MC documented formal policies and procedures
for the risk assessments. It also expanded and refined its risk assessment methodology.
Specifically, CGFS/DCFO/MC defined a “program,” incorporated the required OMB risk factors
into its qualitative assessments, and correctly calculated the significant improper payment
threshold for each of the five programs for which an assessment was performed. However, the
methods used to identify programs with significant changes and perform the qualitative
assessments need refinements to ensure that all programs at risk for significant improper
payments are identified and adequately assessed.

       Significant Changes Threshold

       The method used to identify programs with significant funding changes needed
refinement. The use of the $100 million threshold may not have identified all programs that had
increased risks because of increased funding. Specifically, Kearney identified function codes
with increases in expenditures of less than $100 million, CGFS/DCFO’s threshold for
assessment. However, the increases represented large percentage increases in spending. For
example:

      The Aviation Support function code had payments of $123.9 million in FY 2010 and
       $210.7 million in FY 2011, an increase of $86.68 million, or 70 percent.
      The Program Development and Support function code had payments of $72.6 million in
       FY 2010 and $156.6 million in FY 2011, an increase of $83.9 million, or 116 percent.
      The Public Diplomacy Program Direction function code had payments of $53.3 million
       in FY 2010 and $123.8 million in FY 2011, an increase of $70.5 million, or 132 percent.
        While these programs saw expenditure increases below CGFS/DCFO’s threshold, each
program had significant increases in spending over their FY 2010 baseline expenses. Programs
that have large spikes in spending are at risk for making improper payments. Although larger
programs that incur billions of dollars in spending a year may be able to handle the increased
workload that an additional $100 million in payments entails, a smaller program that sees
spending double in a fiscal year may not have sufficient resources or an adequate control
structure in place to handle dramatic increases in program spending.

       Qualitative Assessments

       Kearney also identified areas for improvement in the qualitative assessments.
Specifically,


                                                7

                                       UNCLASSIFIED
                                             UNCLASSIFIED



     	 CGFS/DCFO/MC performed the qualitative risk assessments without obtaining input
        from the bureaus or offices that had oversight of the programs.12 Bureau program
        personnel are the best source for information about their respective programs and
        associated risks. Without input from program managers, CGFS/DCFO/MC may not be
        aware of factors that could increase or decrease a program’s risk. In addition, the use of
        outdated or inaccurate information obtained from a Web site or outdated reports may lead
        to an incorrect assessment of program risk. This issue was first reported in the 2012
        report on the Department’s FY 2011 compliance with IPIA.

     	 Although CGFS/DCFO/MC developed objective, quantitative definitions of the risk level
        for six of the eight risk factors evaluated, it did not do so for two risk factors. For
        example, for the risk factor “complexity of the program,” the scorecard defined high
        complexity as being at high risk. In addition, for the risk factor “level, experience, and
        quality of training of personnel,” the scorecard defined low risk as “in compliance” and
        high risk as “not in compliance.” No additional details were provided on how these
        factors should be judged.

     	 For the risk factor “volume of payments made,” CGFS/DCFO/MC analyzed the dollar
        value of payments instead of the number or frequency of payments.

Baseline Programmatic Risk Assessments Were Not Performed

       Although CGFS/DCFO/MC performed a risk assessment of the programs that it defined
as having significant changes, as of the end of fieldwork for this audit CGFS/DCFO/MC had not
performed an assessment of all programs as required by IPIA. During the audit of the
Department’s FY 2011 compliance with IPIA, Kearney found that CGFS/DCFO/MC did not
conduct full baseline risk assessments of all programs. In FY 2011, CGFS/DCFO/MC assessed
only four programs: Construction, Retirement, African Union-United Nations Hybrid Mission in
Darfur, and Near East Refugee Programs.

        CGFS/DCFO/MC also did not conduct the baseline risk assessments of all programs in
FY 2012. At the time of this audit, CGFS/DCFO/MC had assessed a total of nine programs for
the risk of significant improper payments–five in FY 2012 and four in FY 2011. Kearney
identified 14 function codes that each had payments in FY 2011 of over $100 million that were
not assessed in FY 2011 or FY 2012. For example, the Fulbright Program (function code 2300),
with payments of $257 million in FY 2011, and Maintenance and Repair of Short Term Leases
for Residential Facilities (function code 7340), with payments of $313.5 million in FY 2011, had
never been assessed.

       Further, CGFS/DCFO/MC defined “significant programs” as those programs with over
$100 million in payments. Therefore, function codes with payments of less than $100 million
were not assessed. Kearney identified over 600 function codes with total payments of less than
$100 million in FY 2011. Additional analyses of these function codes may identify

12 Although CGFS/DCFO/MC did not obtain input during its initial qualitative risk assessments, Kearney noted that
the risk assessment policy requires that CGFS/DCFO/MC obtain input from bureaus and offices for programs that
are identified as high risk during the initial assessment.
                                                        8

                                             UNCLASSIFIED
                                             UNCLASSIFIED


programmatic groups that would meet the Department’s $100 million significant programs
threshold.

       A CGFS/DCFO/MC official stated that a full baseline risk assessment was not performed
in FY 2012 because of resource limitations and the focus on developing formal policies and
procedures. CGFS/DCFO/MC’s analysis indicated that programs of over $100 million that had
not been subjected to risk assessment totaled only $2.5 billion, or 16.9 percent of total net
expenditures. A CGFS/DCFO/MC official stated that all significant programs would be
evaluated during the FY 2013 risk assessment.

        Without a baseline risk assessment of all programs, CGFS/DCFO/MC may not have
identified all programs with the risk of significant improper payments. A strong risk assessment
process is the starting point for any successful improper payments reduction and recapture
program. The information developed during a risk assessment forms the foundation upon which
management can determine the nature and type of controls in place and identify control
improvements to reduce risks and ultimately reduce improper payments.

Program Definition and Identification Need Improvement

        Before CGFS/DCFO/MC performs its baseline risk assessments in FY 2013, it should
improve its definition of a “program” as well as its process for identifying programs. During the
audit of the Department’s FY 2011 efforts to comply with IPIA, Kearney identified concerns
with how the Department defined and selected programs for its risk assessment process. OMB
Circular A-123, Appendix C, states that for improper payment risk assessment procedures, a
program includes “activities or sets of activities recognized as programs by the public, OMB, or
Congress, as well as those that entail program management or policy direction.” In FY 2011,
CGFS/DCFO/MC initially identified programs by expense category and then grouped some
expenses into subcategories. Based on the audit findings, in its 2012 report OIG recommended
that CGFS develop a comprehensive definition of programs.

        During FY 2012, CGFS/DCFO/MC developed policies that included a definition of a
program. Specifically, the guidance stated that for risk assessment purposes, “The Department
has elected to define its programs as a combination of allotments and functions codes, depending
on their materiality.” According to the Foreign Affairs Handbook (FAH),13 an allotment code is
used to designate the bureaus, offices, or posts that are responsible for funds. For example
allotment code 1024 is the Bureau of Consular Affairs. The FAH14 states that function codes
show the purpose of the payment and are used to meet the Department’s requirements for
identifying and classifying the programs under the Department’s appropriation. For example, the
Department has function codes for activities such as Arms Control and the Africa Refugee
Program.

       Although the guidance stated that CGFS/DCFO/MC would use a combination of
allotment and function codes to identify programs, initially CGFS/DCFO/MC identified
programs with significant changes only by assessing function codes. However, based on a

13   4 FAH-1 H-310, “Allotment Authority and Allotment and Operating Allowance Codes.”
14   4 FAH-1 H-510, “Function Classification Structure.”
                                                       9

                                             UNCLASSIFIED
                                               UNCLASSIFIED


qualitative consideration of factors such as common internal control environments,
CGFS/DCFO/MC elected to combine certain function codes within the five programs it selected
for assessments: Assessed Contributions, Voluntary Contributions, Promote the Rule of Law
and Administration of Justice, Civilian Police Programs, and Iraq Overseas Contingency
Operations. Not all of these programs were allotments or function codes, which was inconsistent
with CGFS/DCFO/MC policies.

        In addition, CGFS/DCFO/MC did not always ensure that payments associated with each
program were related to that program. For example, CGFS/DCFO/MC grouped all Department
expenditures for six function codes under Iraq Overseas Contingency Operations, even though
some of these expenditures were made in other locations, including Afghanistan and Pakistan.
Although the programs identified by CGFS/CCFO/MC for risk assessments in FY 2012 may
have been relevant, without a clear, consistently applied definition of a program,
CGFS/DCFO/MC cannot document that it had grouped payments with similar risk profiles and
that the programs chosen had met the intent of IPIA.

        In addition to refining the definition of a program, CGFS/DCFO/MC also needs to
develop a methodology to extract payments related to the identified programs in a cost-effective
and timely manner. According to Department officials, one of the reasons for defining programs
by allotment and function code was that the data was readily available within the financial
management system.15 Although Kearney believes that it is reasonable for CGFS/DCFO/MC to
consider the availability of financial data as one factor when determining the definition of a
program, the availability of financial data should not be the only consideration.
CGFS/DCFO/MC should also have a strategic perspective when identifying programs. For
example, CGFS/DCFO/MC could coordinate with the functional bureaus to identify key
Department programs.

        Before performing the baseline risk assessments, it is essential for CGFS/DCFO/MC to
establish and consistently implement a methodology to define and identify a standard list of
programs for risk assessment purposes. Flexibility exists for CGFS/DCFO/MC to define
programs in a manner that is meaningful to the Department, but refinements are needed in the
current process.

      The 2012 report on the Department’s FY 2011 compliance with IPIA included a
recommendation relating to the Department’s improper payments risk assessment as follows:

Recommendation 1 (AUD/FM-12-31). OIG recommends that the Bureau of Resource
Management16 develop policies and standard procedures for performing an improper payments
risk assessment. The policies and procedures should include, but not be limited to, the
following:


15 Kearney reported a control deficiency related to the process used by the Department to identify and allocate costs
in its Statement of Net Cost in the Independent Auditor’s Report on the U. S. Department of State 2012 and 2011
Financial Statements (AUD-FM-13-08, Nov. 2012).
16 Since the 2012 report was issued, the Bureau of Resource Management was restructured. CGFS assumed all
financial management services, programs, and systems activities.
                                                         10

                                               UNCLASSIFIED
                                       UNCLASSIFIED



      A comprehensive definition of the programs to be assessed. 

      A method to ensure that all program costs are identified. 

      A description of the quantitative and qualitative factors to be considered.

      A method to obtain input from the bureaus and offices responsible for the programs. 


       CGFS/DCFO/MC has developed policies and standard procedures for performing an
improper payments risk assessment. Therefore, OIG is closing this recommendation upon the
issuance of this report. However, the policies and procedures do not address all OMB Circular
A-123, Appendix C, requirements. Refinements to the improper payments risk assessment
methodology are needed to ensure that all programs with the risk of significant improper
payments are identified and assessed.

       Recommendation 1. OIG recommends that the Bureau of the Comptroller and Global
       Financial Services

           	 Conduct full baseline risk assessments for all programs.
           	 Refine its definition of a program in accordance with guidance from the Office of
              Management and Budget and identify programs for risk assessments consistently,
              using that definition.
            Refine its definition of significant changes in funding to include a consideration
              of programs with significant percentage changes.
            Refine the risk assessment process to provide additional guidance for rating each
              risk factor.
            Implement a method to obtain input from the bureaus and offices responsible for
              the programs.

       CGFS Response: CGFS concurred with the recommendation, stating that it will
       “implement corrective actions as appropriate.” CGFS also stated that it will “work
       closely with the OIG” to refine its “definition of programs and conduct full baseline risk
       assessments in FY 2013.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the Department has
       conducted a baseline risk assessment for all programs, refines its definition of a program
       and of significant changes, provides additional guidance on risk factors, and obtains
       information from bureaus and offices that are responsible for the programs.

B. Controls Successfully Implemented To Prevent, Detect, and Recapture
Improper Payments but Need To Be Strengthened
       The Department has implemented a program of internal control to prevent, detect, and
recapture improper payments. Specifically, the Department had policies and procedures for
prepayment reviews to prevent improper payments, post-payment reviews to detect improper
payments, and recapture audits to recover improper payments. The Department’s post-payment


                                               11

                                       UNCLASSIFIED
                                            UNCLASSIFIED


reviews and recapture audits have identified and recovered improper vendor payments totaling
over $60.5 million since FY 2007.17

        However, the Department excluded a significant amount of payments from its recapture
audits without performing and documenting cost-benefit analyses to support the exclusions. In
addition, the recapture audit process was focused on payments without a consideration of
program factors that could increase or decrease the risk of improper payments, and recapture
audits were limited to identifying duplicate payments. Although CGFS/OMA was analyzing
ways to perform recapture audits over excluded payment types, it had not completed that
analysis at the time of this audit. The recapture audit exclusions and focus have limited the
Department’s ability to identify and recover all improper payments and target recapture activities
on the highest risk programs.

Prepayment Reviews Were Performed

        OMB Circular A-123, Appendix C, states that when implementing a payment recapture
audit program, agencies “shall have a cost-effective program of internal control to prevent,
detect, and recover overpayments.” Prevention activities are designed to prevent improper
payments from occurring.

        The Department had controls in place to help prevent improper payments from occurring.
For payments to vendors, vendors must submit invoices to either the Department’s financial
service centers or to the foreign post that procured the good or service. For an invoice to be paid,
an approved official must certify that the good or service was received and ensure that the
invoice is valid and accurate. Once the invoice is approved, two Department personnel, a
voucher examiner and a certifying officer, are required to process the payment. The voucher
examiner enters the transaction into the Department’s accounting system and ensures that all
supporting documentation has been submitted. The certifying officer reviews the transaction and
verifies that the supporting documentation is complete and the accounting data is correct. The
Department’s financial accounting systems have automated controls that also verify certain
payment-related information. For example, the domestic financial management system does not
process payments with duplicate invoice numbers from one vendor.

        The Department uses other systems and processes to disburse payments for other
activities (for example, grant payments or payments to pensioners). The Department had
prepayment controls in place for these payments as well. For example, grantee eligibility and
compliance with grant covenants on prior awards were reviewed prior to disbursement of grant
payments. Pension payments were reviewed prior to disbursement against the “Do Not Pay”
Social Security listing to ensure payments were not made to deceased individuals.

Post-Payment Reviews Were Performed as Part of Routine Payment Process

      OMB Circular A-123, Appendix C, states that detection activities occur subsequent to
payment and are intended to detect improper payments that may have occurred. These actions

17Amount represents payment recapture audit recoveries and CGFS/F/C recoveries as disclosed in the Department’s
FY 2007-2012 AFRs.
                                                      12

                                            UNCLASSIFIED
                                       UNCLASSIFIED


test the accuracy of payment processes and identify improper payments made during those
processes. For example, routine payment verification or quality control would review a universe
of payments using criteria different than those used during prepayment reviews to detect
potential improper payments.

       The Department performed post-payment reviews as part of its routine payment process.
Specifically, CGFS/F/C selected random samples of payments on a monthly basis and reviewed
the sampled items for adequate support, proper approval, and the validity and accuracy of the
amounts disbursed. This process would identify payments made to individuals who should not
have received them, payments made in incorrect amounts, and payments that should not have
been made. CGFS/F/C also used data-matching techniques to identify potential duplicate
payments disbursed in the current fiscal year.

        On a monthly basis, CGFS/F/C prepared a monthly Quality Management report that
summarized the improper payments identified. This report tracked improper payments identified
against key metrics, including improper payments as a percentage of total payments issued.
Based on its analysis of the improper payments, CGFS/F/C identified the root causes and trends
of improper payments and reported the improper payments by office responsible, vendors paid,
and bureau.

       During FY 2012, CGFS/F/C identified $11.1 million in overpayments through its post-
payment reviews. Of the $11.1 million in overpayments identified, CGFS/F/C recovered
$10.9 million. CGFS/F/C also recovered additional improper payments, totaling $700,000, that
were identified during post-payment reviews in previous years.

Recapture Audit Process Had Been Implemented

        IPIA requires agencies to conduct recovery audits (also known as “recapture audits”) if
conducting such audits would be cost effective. According to OMB Circular A-123, Appendix
C, a recapture audit is a review and analysis of accounting and financial records, supporting
documentation, and other information supporting payments that is specifically designed to
identify overpayments.

        The Department had implemented a recapture audit process. CGFS/OMA performed
recapture audit activities by auditing domestic payments on a monthly basis. Specifically,
CGFS/OMA extracted a data file of payments made during the previous month from the
domestic financial management system and imported the file into a data analysis tool.
CGFS/OMA then performed a search for potential duplicate payments by comparing the invoice
number and dollar amount of each payment in the monthly data file against the payments made
during the previous 3 years. Payments with the same invoice number and dollar amount were
extracted into a separate file of potential duplicate payments. CGFS/OMA provided the potential
duplicate payments to CGFS/F/C for review.

       As reported in the Department’s FY 2012 AFR, CGFS/OMA identified $35,357 in actual
duplicate payments made during FY 2012. Of this amount, the Department recovered $35,141,
with only $216 outstanding at the time of this audit.

                                               13

                                       UNCLASSIFIED
                                         UNCLASSIFIED


       Post-Payment Review and Recapture Audit Results

        Together, the Department’s post-payment reviews and improper payments recapture
audits identified improper payments totaling approximately $60.5 million from FY 2007 to FY
2012. Of that amount, the Department recovered approximately $57.5 million, as shown in
Table 1.

Table 1. Improper Payments Identified and Recovered From FY 2007 to FY 2012
                              Amount Identified            Amount Recovered
       Fiscal Year                (in millions)                During FY
                                                              (in millions)
          2012                                  $11.1                       $11.6
          2011                                   16.6                          15
          2010                                    8.1                         7.9
          2009                                    3.9                         3.8
          2008                                   15.4                        14.3
          2007                                    5.4                         4.9
          Total                                 $60.5                       $57.5
Source: Department AFRs from FY 2007 to FY 2012.

Recapture Audit Methodology Needs Improvement

         Although CGFS/OMA performed recapture audits, it excluded a significant amount of
payments from the audits without conducting cost-benefit analyses to support these exclusions,
as was required. In addition, CGFS/OMA focused its recapture audits on payments rather than
on programs, and the audits were limited to one type of improper payments–duplicate payments.
At the time of this audit, CGFS/OMA was analyzing ways to perform recapture audits over
excluded payment types. The recapture audit exclusions and focus limited the Department’s
ability to identify and recover all improper payments and target recapture activities on the
highest risk programs.

       Recapture Audit Exclusions

        OMB Circular A-123, Appendix C, states that agencies may exclude payments from
certain programs from payment recapture audit activities if the agency determines that payment
recapture audits are not a cost-effective method for identifying and recapturing improper
payments. If an agency excludes a program that expends more than $1 million, the agency must
notify OMB and OIG of this decision and include any analysis used by the agency to reach this
decision.

       The Department’s FY 2012 recapture audit process did not include a significant amount
of payments. Specifically, CGFS/OMA excluded, from payment recapture audits, the payments
that were made outside the CGFS/F/C payment process. For example, CGFS/OMA excluded
overseas payments amounting to approximately $1.9 billion. These payments were processed by
the Department’s overseas financial management system. CGFS/OMA also excluded grant
payments amounting to approximately $1.8 billion that were made through the Payment

                                                   14

                                         UNCLASSIFIED
                                            UNCLASSIFIED


Management System,18 which processes the majority of the Department’s financial assistance-
related payments. In addition, CGFS/OMA excluded pension annuity payments amounting to
approximately $874 million19 that were processed by CGFS’s Retirement Accounts Division.
CGFS/OMA excluded these payments for a variety of operational reasons. For example, the
overseas financial management system does not require that the invoice number, which is used
by CGFS/OMA to identify duplicate payments, be entered for overseas payments, and in some
cases, multiple invoices may be entered and the payments may be made with one disbursement.

       CGFS/OMA also excluded certain payments that were processed by CGFS/F/C from the
recapture audits. The excluded payments included, but were not limited to, bulk payments,
which included purchase card payments; shipping payments; and certain travel payments. These
bulk payment exclusions exceeded $378 million in FY 2012.

        As a result of the exclusions, the Department’s FY 2012 recapture audit activities did not
cover approximately $3.6 billion in payments subject to IPIA requirements. Although
CGFS/OMA excluded a significant amount of payments, it did not perform and document a cost-
benefit analysis supporting the basis for these exclusions, as was required.

        Recapture Audit Focus

        IPIA requires agencies to conduct payment recapture audits for each program that
expends $1 million or more annually if conducting such audits would be cost effective. OMB
Circular A-123, Appendix C, requires all programs exceeding the $1 million threshold, including
grant, benefit, loan, and contract programs, to be considered during the payment recapture audits.
Agencies are required to review their different types of programs and prioritize conducting
payment recapture audits on those categories that have a higher potential for overpayments and
recoveries.

        CGFS/OMA’s recapture audits focused on payments rather than on programs.
CGFS/OMA’s approach enabled it to include a large number of payments in the recapture audits.
Although performing recapture audit activities based on payments is a beneficial internal control,
using a payment approach alone does not consider specific program characteristics that may
increase or decrease the risk for improper payments. For example, payments made for programs
that have a large number of disbursements and limited oversight resources, such as programs in
war zones or at some hardship posts, received the same level of review as payments for programs
that have a small number of disbursements and adequate resources. In addition, although the
amount of improper payments identified during recapture audits may appear to be insignificant
to the Department as a whole using the payment approach, the amount of improper payments
identified for a specific program may be significant to the program. A more program-focused
approach would enable CGFS/OMA to identify the programs that have a high rate of improper
payments, target future recapture audit activities more efficiently on those programs, and identify
and correct the circumstances that led to improper payments in those programs.


18 The Payment Management System is a grant payment system maintained by the U.S. Department of Health and 

Human Services.

19 The amount disbursed to beneficiaries was disclosed in the Department’s FY 2012 AFR, Note 10.


                                                     15

                                            UNCLASSIFIED
                                        UNCLASSIFIED


       The Department’s recapture audits were also limited to a search for duplicate payments.
The audits did not search for other types of improper payments. For example, the audits were
not designed to identify overpayments or underpayments and were not designed to identify
payments for goods and services not received, payments to ineligible recipients, fraudulent
payments, or payments that lacked adequate support.

       Limited Ability To Identify and Recover Improper Payments

        The issues relating to recapture audit exclusions and focus were first reported in the 2012
report on the Department’s FY 2011 compliance with IPIA. Since that report was issued,
CGFS/OMA had not modified its recapture audit process. However, at the time of this audit,
CGFS/OMA was analyzing ways to perform recapture audits over excluded payment types.
Specifically, CGFS/OMA was exploring ways to perform sampling of overseas payments.
CGFS/OMA was also gaining an understanding of the payment controls over excluded grantee
and retirement payments to determine whether it would be possible to construct a cost-effective
recapture audit program over those payments.

        Without a sufficient cost-effective recapture audit program, the Department may have
made but had not identified and recovered all improper payments. A well-designed recapture
audit process targets areas most susceptible to improper payments and leverages the latest
technologies. Although traditionally used as a technique to identify improper payments already
made, recapture auditing results can also be used to identify trends in improper payments and
improve controls to prevent improper payments.

      The 2012 report on the Department’s FY 2011 compliance with IPIA included a
recommendation relating to the Department’s recapture audit activities as follows:

Recommendation 2 (AUD/FM-12-31). OIG recommends that the Bureau of Resource
Management develop policies and standard procedures for its recapture audit activities. These
policies and procedures should include, but not be limited to, the following:

      Program, as well as payment, audit activities to help target recapture audits on programs
       or payment types that are deemed higher risk.
      Alternative procedures to audit payments occurring outside the Global Financial
       Management System.
      Analytics and other proven recapture audit techniques (for example, predictive modeling,
       additional forensic accounting tools, additional data matches, and financial incentives)
       that address improper payments types other than duplicate payments.
      Requirements for performing a cost-benefit analysis for programs and payment types
       excluded from recapture audit activities and communicating the exclusions to the Office
       of Management and Budget and OIG.

        CGFS/OMA has developed policies and procedures for its recapture audit activities.
Therefore, OIG is closing this recommendation upon issuance of this report. However, the
policies and procedures do not address all OMB Circular A-123, Appendix C, requirements.
CGFS/OMA should continue its efforts to identify ways to expand its audit coverage over

                                                16

                                        UNCLASSIFIED
                                       UNCLASSIFIED


currently excluded payments and refocus its recapture activities on programs with a higher
potential for overpayments and recoveries, as required by OMB Circular A-123, Appendix C.

       Recommendation 2. OIG recommends that the Bureau of the Comptroller and Global
       Financial Services revise existing policies and standard procedures for its recapture audit
       activities to ensure compliance with all Office of Management and Budget requirements.
       These revised policies and procedures should include, but not be limited to, the
       following:

             Program, as well as payment, audit activities to help target recapture audits on
              programs or payment types that are deemed higher risk.
            Alternative procedures to audit payments occurring outside the domestic financial
              management system.
           	 Analytics and other proven recapture audit techniques (for example, predictive
              modeling, additional forensic accounting tools, additional data matches, and
              financial incentives) that address improper payments types other than duplicate
              payments.
           	 Requirements for performing a cost-benefit analysis for programs and payment
              types excluded from recapture audit activities and communicating the exclusions
              to the Office of Management and Budget and Office of Inspector General.

       CGFS Response: CGFS concurred with the recommendation, stating that it will
       “implement corrective actions as appropriate.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG confirms that the Department has revised its existing policies and
       procedures related to recapture audit activities.

C. Most Improper Payments Disclosures Were Made, but Some Were
Omitted or Were Inaccurate
        The Department’s FY 2012 AFR included improper payments disclosures that provided a
high-level understanding of the Department’s IPIA risk assessment process and recapture audit
activities and results. However, the AFR did not include all OMB-required disclosures, and
other disclosures were inaccurate. By not including complete and accurate information in its
AFR, the Department is not providing users with complete information about its efforts related to
improper payments.

Most Improper Payments Disclosures Were Made

       IPIA states that for an agency to be in compliance with the Act, the agency must publish
an annual financial statement for the most recent fiscal year and post that report, with the
information on improper payments required by OMB, on the agency’s Web site. OMB Circular
A-123, Appendix C, requires an agency to disclose specific information relating to improper
payments in its annual AFR in the format provided in OMB Circular A-136, Revised, Financial
Reporting Requirements.
                                               17

                                       UNCLASSIFIED
                                        UNCLASSIFIED




        The Department published its FY 2012 AFR on its Web site. The AFR included most of
the required improper payments disclosures. For example, the AFR included summary
information on improper payments, a general description of the Department’s risk assessment
process, and a description of the Department’s payment recapture audit program. The
information reported in the AFR provided a high-level understanding of the Department’s IPIA
risk assessment process and recapture audit activities and results.

Some Required Disclosures Were Omitted or Were Inaccurate

        Although the Department included most of the required disclosures in its AFR, several
disclosures were omitted. For example, OMB Circular A-136 requires that an agency provide a
brief description of its progress on eliminating and recovering improper payments in the
Management’s Discussion and Analysis section of its AFR. OMB Circular A-123, Appendix C,
requires that an agency report the basis for its groupings of programs in the AFR and provide a
description and justification of the classes of payments excluded from payment recapture audits.
The Department did not make these disclosures in its FY 2012 AFR. These issues were first
reported in the 2012 report on the Department’s FY 2011 compliance with IPIA.

        In addition, the Department’s payment recapture tables in the AFR did not follow the
format provided in OMB Circular A-136, and the Department did not include all required
information in the tables. Specifically, the tables did not include columns to identify the
programs for which recapture audits were performed, as was required. Further, the recapture
tables did not include complete information on the payments identified and recovered through
sources other than payment recapture audits. The Department included the amounts identified
and recovered by CGFS/OMA during recapture audit activities and by CGFS/F/C during post-
payment reviews as well as OIG recoveries. However, the Department did not track and assess
information on payments identified and recovered in other Department offices and bureaus, such
as contract closeout recoveries, recoveries resulting from grant compliance reviews, and pension
overpayment recoveries. This issue also was first reported in the 2012 report.

        Kearney also identified some information in the AFR that may be misleading. In its
description of the recapture audit analysis, the Department stated that the domestic payment file
used during the analysis “presently includes the majority of payments subject to IPERA
requirements such as most domestic vendor payments and grant payments.” However,
CGFS/OMA did not include grant payments made through the Payment Management System in
its recapture audits. These payments make up the majority of grant payments made by the
Department. Further, the recapture tables include a column for identifying the type of payment
included in the payment recapture audit. In the Department’s payment recapture tables, this
column indicated that all payments were subject to the review. However, as discussed in Finding
B, CGFS/OMA excluded, from its payment recapture audits, certain payment types, including
overseas payments, Payment Management System grant payments, pension annuity payments,
and bulk payments. These issues also were reported in the 2012 report.

       By not including all required information in its AFR, the Department did not provide
users with relevant and reliable information about its efforts to prevent and identify and recover

                                                18

                                        UNCLASSIFIED
                                      UNCLASSIFIED


improper payments. AFRs play a key role in fulfilling the Government’s duty to be accountable
for the use of public funds, and AFRs can be used to assess an agency’s efficiency and
effectiveness in performing activities such as identifying and recapturing improper payments.
The results of an agency’s actions related to improper payments should be available not only to
Congress and agency management but also to the general public.

      The 2012 report on the Department’s FY 2011 compliance with IPIA included a
recommendation relating to the Department’s improper payments reporting as follows:

Recommendation 3 (AUD/FM-12-31). OIG recommends that the Bureau of Resource
Management develop policies and standard procedures that ensure that the improper payments
information included in the Department of State Agency Financial Report is complete and
accurate.

        CGFS/DCFO/MC has developed formal policies and standard procedures for preparing
the disclosures since the 2012 report. Therefore, OIG is closing this recommendation upon
issuance of this report. However, because the policies and procedures did not ensure that all
required improper payments disclosures were made, CGFS should improve its controls over
improper payments reporting.

       Recommendation 3. OIG recommends that the Bureau of the Comptroller and Global
       Financial Services enhance existing policies and standard procedures to ensure that the
       improper payments information included in the Department of State Agency Financial
       Report is complete and accurate.

       CGFS Response: CGFS concurred with the recommendation, stating that it will
       “implement corrective actions as appropriate.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG confirms that the Department has enhanced its policies and procedures
       for including improper payments information in the Agency Financial Report.




                                              19

                                      UNCLASSIFIED
                                      UNCLASSIFIED



                                List of Recommendations

Recommendation 1. OIG recommends that the Bureau of the Comptroller and Global Financial
Services

   	 Conduct full baseline risk assessments for all programs.
   	 Refine its definition of a program in accordance with guidance from the Office of
      Management and Budget and identify programs for risk assessments consistently, using
      that definition.
    Refine its definition of significant changes in funding to include a consideration of
      programs with significant percentage changes.
    Refine the risk assessment process to provide additional guidance for rating each risk
      factor.
    Implement a method to obtain input from the bureaus and offices responsible for the
      programs.

Recommendation 2. OIG recommends that the Bureau of the Comptroller and Global Financial
Services revise existing policies and standard procedures for its recapture audit activities to
ensure compliance with all Office of Management and Budget requirements. These revised
policies and procedures should include, but not be limited to, the following:

     Program, as well as payment, audit activities to help target recapture audits on programs
      or payment types that are deemed higher risk.
    Alternative procedures to audit payments occurring outside the domestic financial
      management system.
   	 Analytics and other proven recapture audit techniques (for example, predictive modeling,
      additional forensic accounting tools, additional data matches, and financial incentives)
      that address improper payments types other than duplicate payments.
   	 Requirements for performing a cost-benefit analysis for programs and payment types
      excluded from recapture audit activities and communicating the exclusions to the Office
      of Management and Budget and Office of Inspector General.


Recommendation 3. OIG recommends that the Bureau of the Comptroller and Global Financial
Services enhance existing policies and standard procedures to ensure that the improper payments
information included in the Department of State Agency Financial Report is complete and
accurate.




                                              20

                                      UNCLASSIFIED
                                              UNCLASSIFIED



                                                                                                    Appendix A

                                       Scope and Methodology
        The Improper Payments Elimination and Recovery Act of 20101 (IPERA), which
amended the Improper Payments Information Act of 20022 (IPIA), requires the Office of
Inspector General (OIG) to conduct an annual audit of the Department of State’s (Department)
compliance with improper payments requirements. In accordance with the IPERA requirement,
an external audit firm, Kearney & Company, P.C. (Kearney), acting on OIG’s behalf, performed
this audit to determine whether the Department was in compliance with IPIA, as amended by
IPERA.3

       Kearney conducted this performance audit from December 2012 through February 2013
in Washington, D.C., and at the Office of Global Financial Services in Charleston, South
Carolina. Kearney planned and performed the audit in accordance with performance audit
requirements in the Government Accountability Office’s Government Auditing Standards,
December 2011 Revision. Those standards required that Kearney obtain sufficient, appropriate
evidence to provide a reasonable basis for findings and conclusions. The sufficiency and
appropriateness of evidence needed and tests of evidence related directly to the objective and
scope of the audit.

        Kearney focused the scope of the audit on the following areas: (1) evaluating whether
the Department conducted a program-specific risk assessment for all programs; (2) evaluating
the Department’s performance in preventing, detecting, and recapturing improper payments; and
(3) determining whether the Department reported the required improper payments information in
its 2012 Agency Financial Report (AFR).

        Kearney designed the audit to obtain insight into the Department’s current processes,
procedures, and organizational structure with regard to compliance with IPIA requirements. To
expedite the audit process, Kearney leveraged the results of its FY 2012 financial statement audit
and audit of the Department’s FY 2011 compliance with IPIA to confirm its understanding of the
nature and profile of Department operations, IPIA standards, regulatory requirements, and
supporting information systems and controls.

        Kearney conducted process walkthroughs and interviews with Department officials to
obtain a sufficient understanding of the steps taken by the Department to assess the risk of
improper payments; its process of identifying significant improper payments; the steps taken to
prevent, reduce, and recapture improper payments; and the process of reporting improper
payments. Consistent with the fieldwork standards for performance audits, Kearney established
performance criteria and identified sources of audit evidence to complete the testing phase.

        The testing phase provided Kearney with evidence to determine the findings of the report
issued for the performance audit. The criteria determined in the planning phase served as the

1 Pub. L. No. 111-204 §3(b).

2 Pub. L. No. 107-300.

3 Unless otherwise indicated, the term “IPIA” means “IPIA, as amended by IPERA,” in this report.


                                                       21

                                              UNCLASSIFIED
                                       UNCLASSIFIED


bases for assessing the Department’s compliance with IPIA requirements. The testing phase
included procedures to assess the Department’s IPIA reporting process, the recapture audit
process, and the AFR disclosures.

        During the reporting phase, Kearney formally communicated the conclusions reached and
the findings and recommendations.

Work Related to Internal Controls

        Kearney performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, Kearney assessed the controls contained in the Department’s policies and
procedures for making payments, performing risk assessments, reviewing payments, and
reporting improper payments information. However, Kearney did not perform testing of these
controls because it was beyond the scope of this audit.

Use of Computer-Processed Data

        Kearney obtained computer processed data (that is, spreadsheets) and reporting packages
to aid in determining whether the Department had complied with IPIA. More specifically, these
data provided evidence that the Department had taken steps to comply with IPIA. Kearney did
not perform tests to validate the spreadsheet amounts because such testing was not necessary to
accomplish audit objectives. However, Kearney assessed the data provided as reasonable based
on its understanding of the financial information gained during the audit of the Department’s FY
2012 financial statements.




                                               22

                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                                         Appendix B

                                                                 UIlIIl:d Slill l:,> De parlment of Stat I.!
                                                                 ( 'olllplrollL'1'
                                                                 IWi') f),'('" h '",UI,'
                                                                 ('IIarh"'OII _\ ( !V.JO'i

                                                                 MAR 1 3 2013
UNCI.ASSIFIEp

j\'IEMORAN n Ut\l

TO:             OIG - llurry W.   G~isd


FROM:           CGFS - J:Ulles L. Mi IiCIIf \

SUBJECT:        Droll Repon on Audit or Dcpartmenl or Slate FY 2012 Compliance Wilh the
                Improper Payments R~quirelllcnts

Thank you ror the opponunity to comment on ti1c Office orlnspector Gencrnl's (OIG) Draft
Report titll'<l Audit or Departlllcni of Slatc FY 2012 Compliance with the Improper Pilyments
Rl:quirements.

This compliance audit is rclathcly new in only its second year of rcquircd reportin~ to OMR and
Con~rcss ror FY 2012, Significant amendments hu ve been mude in the pust rew ycars regarding
II' IA, with the pllssage of IPERA (1mpropeT Payments Elimination and Reem'ery Act) and mOSI
recently [PEKIA (hllpropl:r Payme nts Elimi nution and Recovery Improvement Act). The
Depanmcnt has made signi ficant efforts to comply \\ ith all guidance in a manner that also
leverages the good ste"ardship of gOVcnlmenl funds and ensures our initialives arc eOSI·
effective. We tal..e pride that our progr.tm is compliant with IPI A, but we recogui7.c that mott:
impro\cments can be made and will continue doing so. As such. we concur with the OlG
~ommendlltiolls. Thc Departmcnt takes 1i1c OIG rcrommcndations ,"cry seriously. as
demonstrated by the accomplishments nOled in the report. We will carcfully cYalulllc the ne\\
recommendations made and implementthcm to the e)(tent the), are nlx'neficinl and cost·dTccth'e
usc of government runds. Afier we havc fully cYlllual!..'(\ the recommendations. we will
implemcnt corrective actions as appropriutc. In pmticular. we will work closely with the OIG as
we refinc our definition ofprogrnms ilnd conduct full baseline risk nsscssmcnts in FY 2013.

         As aekno\\ledged in the Draft Repon. the Dcpurtmcnt employs numerous preventative
and identification methods to suppon II'IA rcquiremcnts. We have dedieuted considerable
resources to prc\'ent impropc.'r pa),mcnts frolll oceunillg. and take pride in our truck record of
success baSl'(\ on the low volume ofuctual improper piI)'lIlcnts identified and I\."'CO\cred each
year, Prior I PIA regulato!) guiwUlee was geared toward high.risk programs and activities that
were decml'<l susceptible to significant improper payments. Despite h:wing no programs or
activities susceptible to significant improper payments. ns previously defined. the Department
uses risk assessment and rcrapturc initiatives to assist in identirying improper payments and
related payment issues. With the implementation orour Global Financial Management System
in 2007. we rully integrated acquisitions into Ihe financia l system at the line level, signi ficantly


                                            UNCLt\SSIJILD




                                                   23


                                        UNCLASSIFIED
                                        UNCLASSIFIED




                                            iJNCLASS1FIEU
                                                  ·2·


enhanci ng the integrit y of our payments. In addition. we arc strengthening (l Ur payment internal
eonlrol!> through our efforts under UMlJ's 00 Not I'ay initiati ve. For e.'(ample. the Department
has alread y implemented procedures 10 compare OUT payments to Foreign Service annuila nts
again!>! the Social Security Admi ni stration's master death tHe.

We reeogniLe that th..: II'ERA. [PER IA und related guidance has raisct..l thc har on transp(l rentl y
accounting for nnd prcv{'nting improper payments lor all Agcncio:-s. including the Department.
We an:: commilled to meeting thcse compl iance requ i remenl~ in a reasoned manner. Wo:- look
forwllrd to working with bolh the OIG and the Independent Auditor on further enhancements to
our existing programs in the coming ycar.

If you h~lVe any question~ concerning this status sUlIlmary. please conlaCI Carole Clay
(l."UFSIDCFO/MC) uI202-663-(b)(2)(b)(6)




                                                   24


                                        UNCLASSIFIED

       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

